      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




March 2, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at the Confederated Tribes and Bands of the
                Yakama Nation’s Head Start Program (A-09-09-00099)


The attached final report provides the results of our limited scope review of the Confederated
Tribes and Bands of the Yakama Nation’s (the Yakama Nation) Head Start program. The
Administration for Children and Families (ACF), Office of Head Start, requested this review as
part of its overall assessment of Head Start grantees that have applied for additional funding
under the American Recovery and Reinvestment Act of 2009 (Recovery Act).

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and Departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited scope review were to determine whether (1) the Yakama Nation is
fiscally viable and (2) the Yakama Nation’s financial management system adequately managed
and accounted for Federal funds.

The Yakama Nation is fiscally viable. In addition, the Yakama Nation’s financial management
system adequately managed and accounted for Federal funds. However, we noted weaknesses
related to procedures for (1) submission of indirect cost rate proposals, (2) the administrative
cost limit, and (3) property management.
Page 2 – Yvette Sanchez Fuentes


In written comments on our draft report, the Yakama Nation provided information on actions
that it had taken to address the findings. The Yakama Nation’s comments are included in their
entirety as the Appendix.

In determining whether the Yakama Nation should be awarded additional Head Start and
Recovery Act grant funding, we recommend that ACF consider the information presented in this
report in assessing the Yakama Nation’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-09-09-00099 in all correspondence.


Attachment


cc:
Nina L. McFadden
Regional Program Manager
AI/AN Regional Head Start Programs
Nina.McFadden@acf.hhs.gov
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
AT THE CONFEDERATED TRIBES AND
 BANDS OF THE YAKAMA NATION’S
      HEAD START PROGRAM




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-09-09-00099
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the cognitive, social, and
emotional development of children through the provision of health, educational, nutritional,
social, and other services to enrolled children and families. Within the U.S. Department of
Health & Human Services, the Administration for Children and Families (ACF) administers the
Head Start program. Head Start provides grants to local public and private nonprofit and for-
profit agencies to deliver comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

The Confederated Tribes and Bands of the Yakama Nation (the Yakama Nation) is a federally
recognized Nation pursuant to the treaty of June 9, 1855. The Yakama Nation administers the
Head Start program at locations in Toppenish, Wapato, and White Swan, Washington.

The Yakama Nation’s Head Start program is funded primarily through Federal Government
grants. During program year 2010 (April 1, 2009, through March 31, 2010), ACF directly
provided grant funds to the Yakama Nation totaling $1,263,929.

ACF also awarded Recovery Act grant funds to the Yakama Nation for the budget period
July 1, 2009, through September 30, 2010, totaling $86,913 for cost-of-living increases and
quality improvement.

OBJECTIVES

The objectives of our limited scope review were to determine whether (1) the Yakama Nation is
fiscally viable and (2) the Yakama Nation’s financial management system adequately managed
and accounted for Federal funds.

SUMMARY OF FINDINGS

The Yakama Nation is fiscally viable. In addition, the Yakama Nation’s financial management
system adequately managed and accounted for Federal funds. However, we noted weaknesses
related to procedures for (1) submission of indirect cost rate proposals, (2) the administrative
cost limit, and (3) property management.




                                                 i
RECOMMENDATION

In determining whether the Yakama Nation should be awarded additional Head Start and
Recovery Act grant funding, we recommend that ACF consider the information presented in this
report in assessing the Yakama Nation’s financial condition.

YAKAMA NATION COMMENTS

In written comments on our draft report, the Yakama Nation provided information on actions
that it had taken to address the findings. The Yakama Nation’s comments are included in their
entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program............................................................................................1
              The Confederated Tribes and Bands of the Yakama Nation ............................1
              Requirements for Federal Grantees ...................................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY.......................................................2
               Objectives ..........................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

          SUBMISSION OF INDIRECT COST RATE PROPOSALS .......................................3

          ADMINISTRATIVE COST LIMIT ..............................................................................3

          PROPERTY MANAGEMENT .....................................................................................4

          RECOMMENDATION .................................................................................................4

          YAKAMA NATION COMMENTS..............................................................................4

APPENDIX

          CONFEDERATED TRIBES AND BANDS OF THE YAKAMA NATION
           COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the cognitive, social, and
emotional development of children through the provision of health, educational, nutritional,
social, and other services to enrolled children and families. Within the U.S. Department of
Health & Human Services, the Administration for Children and Families (ACF) administers the
Head Start program.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families,
with a special focus on helping preschoolers develop the early reading and math skills needed to
be successful in school. Local Head Start programs engage parents in their children’s learning
and emphasize parental involvement in program administration.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

The Confederated Tribes and Bands of the Yakama Nation

The Confederated Tribes and Bands of the Yakama Nation (the Yakama Nation) is a federally
recognized Nation pursuant to the treaty of June 9, 1855. The Yakama Nation administers the
Head Start program at locations in Toppenish, Wapato, and White Swan, Washington.

The Yakama Nation’s Head Start program is funded primarily through Federal Government
grants. During program year 2010 (April 1, 2009, through March 31, 2010), ACF directly
provided grant funds to the Yakama Nation totaling $1,263,929. The Head Start program year is
different from the Yakama Nation’s fiscal year (FY), which ends on September 30.

ACF also awarded Recovery Act grant funds to the Yakama Nation for the budget period
July 1, 2009, through September 30, 2010, totaling $86,913 for cost-of-living increases and
quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 92.20, grantees are required to maintain financial management systems for
determining the reasonableness, allocability, and allowability of costs in accordance with the
provisions of the applicable Federal cost principles and the terms of the grant. Grantees must



                                                 1
maintain accounting records that are supported by source documentation and must maintain
financial systems that provide for accurate and complete reporting of grant-related financial data.
Grantees are also required to compare actual expenditures or outlays with budget amounts for
each award and may use grant funds only for authorized purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether (1) the Yakama Nation
is fiscally viable and (2) the Yakama Nation’s financial management system adequately managed
and accounted for Federal funds.

Scope

We conducted our audit for the limited purpose described in the objectives; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on the Yakama Nation’s overall system of internal accounting controls. We performed
limited tests and other auditing procedures on the Yakama Nation’s financial management
system to assess its ability to administer federally funded projects.

The financial statements of the Yakama Nation’s governmental activities did not include
financial data for the Yakama Nation’s enterprise funds, 1 fiduciary funds, and component units.
Component units are legally separate organizations for which the Yakama Nation is financially
accountable; the nature and significance of their relationship are such that exclusion would cause
the financial statements to be misleading or incomplete.

We did not review the Yakama Nation Tribal Council meeting minutes. The Tribal Council did
not provide this information because it believed that the minutes were proprietary information.

We performed our fieldwork in August and September 2009, which included visits to the
Yakama Nation’s three Head Start facilities and its administrative office in Toppenish,
Washington.

Methodology

To accomplish our objectives, we:

          reviewed relevant Federal laws and regulations,

          reviewed the Yakama Nation’s fiscal procedures related to accounting documentation and
           preparation of financial reports,




1
    The enterprise funds include a casino, farm, convenience store, loan program, and tourism program.


                                                           2
      obtained selected Federal grant award documentation to determine the Yakama Nation’s
       Federal funding,

      reviewed the Yakama Nation’s audited financial statements for FYs 2006 through 2008
       and its unaudited financial statements for the 8-month period ended August 31, 2009,

      reviewed the Yakama Nation’s expense accounts and Financial Status Reports (SF-269)
       submitted to ACF for program year 2009, and

      performed liquidity and stability analyses of the Yakama Nation’s finances.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

The Yakama Nation is fiscally viable. In addition, the Yakama Nation’s financial management
system adequately managed and accounted for Federal funds. However, we noted weaknesses
related to procedures for (1) submission of indirect cost rate proposals, (2) the administrative
cost limit, and (3) property management.

SUBMISSION OF INDIRECT COST RATE PROPOSALS

Federal regulations (2 CFR part 225, Appendix E, subparagraph D.1.c.) state: “Each Indian
tribal government desiring reimbursement of indirect costs must submit its indirect cost proposal
to the Department of the Interior (its cognizant Federal agency).” Subparagraph D.1.d. of
Appendix E states: “Indirect cost proposals must be developed (and, when required, submitted)
within six months after the close of the governmental unit’s fiscal year, unless an exception is
approved by the cognizant Federal agency.”

The Yakama Nation did not have procedures to ensure that it submitted its indirect cost rate
proposals to its cognizant agency by the due dates. The proposals for FYs 2010 and 2009 were
due on April 1, 2009, and April 1, 2008, respectively. At the time of our site visit, the Yakama
Nation had not submitted the proposal for FY 2010. Also, the Yakama Nation submitted the
proposal for FY 2009 on September 2, 2009, which was 17 months after the due date.

ADMINISTRATIVE COST LIMIT

Section 644(b) of the Head Start Act requires that administrative costs charged to the Head Start
grant not exceed 15 percent of the total project costs, including the Federal and non-Federal
shares. Further, Federal regulations (45 CFR § 1301.32(a)(1)) state: “Allowable costs for
developing and administering a Head Start program may not exceed 15 percent of the total
approved costs of the program … .”


                                                3
The Yakama Nation did not have written policies and procedures to ensure that administrative
costs charged to the Head Start grant do not exceed 15 percent of the total project costs,
including the Federal and non-Federal shares.

During program year 2009, the Yakama Nation’s administrative costs did not exceed 15 percent
of the total project costs because the Yakama Nation did not claim indirect costs for a 6-month
period when it did not have an approved indirect cost rate. However, if the Yakama Nation had
claimed indirect costs for this period, the administrative costs would have been $291,829,
exceeding the administrative cost limit of $230,037 by $61,792.

PROPERTY MANAGEMENT

Federal regulations (45 CFR § 92.32(d)(2)) state: “A physical inventory of the property must be
taken and the results reconciled with the property records at least once every two years.” The
Yakama Nation’s written policies and procedures require an annual inventory of property and
equipment.

The Yakama Nation did not perform a physical inventory of its property at least once every
2 years. The most recent physical inventory of vehicles and playground equipment was
performed in 2006 and reconciled to the property records. However, a physical inventory of the
other equipment in the records was not performed.

RECOMMENDATION

In determining whether the Yakama Nation should be awarded additional Head Start and
Recovery Act grant funding, we recommend that ACF consider the information presented in this
report in assessing the Yakama Nation’s financial condition.

YAKAMA NATION COMMENTS

In written comments on our draft report, the Yakama Nation provided information on actions
that it had taken to address the findings. The Yakama Nation’s comments are included in their
entirety as the Appendix.




                                               4
APPENDIX
    APPENDIX: CONFEDERATED TRIBES AND BANDS OF
                THE YAKAMA NATION COMMENTS




            onJed erat d Tribes a nd Bands                                                         Es tablish d by th e
           of the Yakama Nation                                                                    Trea ty of JlUl 9, 1855



Report Num ber : . -09-09-00099

February 1, 2010

Ms. Lori A Ahlstrand
Regional Inspector General for Audit Services
Office of Audit Services, Region IX
90-7th Street, Suite 3--{)50
San Francisco, CA 94103

Dear Ms. Ahlstrand:

Yakama Nation Head Start (YNHS) had three findings according to the US. Health & Human Services,
Office of Inspector General, draft report entitled "Results of Limited-Scope Review at the Yakama Nation's
Head Start Program. The Yakama Nation Head Start addressed tbese findings by updating the system to
make corrections. An Indirect Cost Rate proposal for FY 2009 was submitted September 2009 and the
Nation is still waiting for approvaL The Nation is waiting for the 2009 Indirect Cost Rate before submitting
the FY 2010 Indirect Cost Rate. It has been established to submit tbe Indirect Rate in a more timely fashion
witbin the six months of September 30, which is tbe close of the tribal unit's fiscal year. The Yakama
Nation may even consider applying for 2 year Indirect Cost Rate, if available to ensure tbe deadline is met.

There has been an inlproved tracking system and on-going monitoring to assess the administration costs. In
addition to being able to distinguish between what is administration costs and program costs according to 45
CFR 1301.32 to personalize and categorize expenditures. The Administration Cost needed back-up to
ensure calculations were correct to not exceed 15 percent oftbe total project costs, including federal and
non-federal share. This will be obtained by following tbe grant application GABI (Grant Application
Budget Instrument) outline for administration cost and on-going monitoring through the Tribal JD Edwards
(Yakama Nation accounting software) system to not exceed tbe 15% administration cost.

In October 2009, Assets Management sent the Yakama Nation Head Start Inventory printouts of each fixed
assets (capital/non-capital). The inventory listings include tbe tribal tag number, serial number, description,
acquisition date, and original cost. To meet tbe needs of an on-going monitoring system a custodian position
was reclassified to Custodian Supervisor, who would act as the assigued property custodian. The Custodian
Supervisor would be in charge of checking items yearly and register new inventory pertaining to 45 CFR
74.2(0), as it arrived. A new form is being created for Head Start for any inventory under $5000 to be
monitored for internal controls of inventory to ensure items are going to tbe designated location, such as
chairs, tables and so forth .

If there are any f\llther questions andlor issues, ple.lse feel free to contact me via phone 509-865-5121
X4340 .

Sincerely,
!Harry Smiskinl

Harry Smiskin
 hairm an, Yakama Tribal Council

                      Po, t O ffice Box 15 1, Fort Road , TOppCIl;'b, \VA 98948 (509) 865 ·5 121
